No. 21A
IN THE SUPREME COURT OF THE UNITED STATES _________________
UNITED STATES OF AMERICA,
v.
DESLOUIS EDOUARD, JR., APPLICANT
CERTIFICATE OF SERVICE

It is hereby certified that all parties required to be served have been served with copies of
the APPLICATION FOR BAIL PENDING TRIAL, via email and first-class mail, postage
prepaid, this 5TH day August, 2021.
[See Attached Service List]
Jonathan J. Sobel, Esquire
Counsel of Record 1500 Walnut Street, Suite 2000, Philadelphia, PA. 19102. (215) 735 7535
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Jonathan J. Sobel, Esquire at (215)
735 7539, or email at Mate89@aol.com. Mr. Sobel’s phone number is (215) 735 7535. Thank
you for your consideration of this request.

19A
UNITED STATES OF AMERICA
LOUIS LAPPEN, DEPUTY UNITED STATES ATTORNEY
615 Chestnut Street, Suite 1250, Philadelphia, PA. 19106

